Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




RECOVERY ACT COSTS CLAIMED BY
COASTAL FAMILY HEALTH CENTER
 WERE GENERALLY ALLOWABLE




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori S. Pilcher
                                              Regional Inspector General

                                                    September 2012
                                                     A-04-11-03540
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services, the Health Resources and Services
Administration (HRSA) administers the program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including the Capital Improvement Program (CIP), the
Increased Demand for Services (IDS), and the Health Information Technology Implementation
(HIT) grants.

Coastal Family Health Center (Coastal) is a nonprofit agency that operates a network of nine
health centers throughout Mississippi. Coastal provides medical, dental, and mental health
services and is funded primarily by patient service revenues and Federal grants.

During calendar years (CY) 2009 and 2010, HRSA awarded Coastal approximately $6.3 million
in grant funding under the Recovery Act. Of this amount, HRSA awarded $3.3 million in CY
2009 that included $1.4 million under an HIT grant to include more clinics in Mississippi’s
common health electronic medical records (EMR) system, $1.3 million under a CIP grant to
renovate four health facilities, and $596,904 under an IDS grant to increase access and reduce
barriers to health care within Coastal’s service area. HRSA awarded the remaining $3 million in
CY 2010 under another HIT grant to include more of Coastal’s clinics in the common EMR
system and to enhance the existing EMR system and patient management system.

As a nonprofit organization in receipt of Federal funds, Coastal must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations; the requirements for
health centers in 42 U.S.C. § 254(b); and the financial management system requirements in 45
CFR § 74.21.

OBJECTIVE

Our objective was to determine whether Coastal claimed costs that were allowable under the
terms of the grants and applicable Federal regulations.




                                                i
SUMMARY OF FINDINGS

Coastal claimed costs that were generally allowable under the terms of the grants and applicable
Federal regulations. Of the $4,621,632 we reviewed, $3,601,977 was allowable and $234,431
was unallowable. We could not determine the allowability of $785,224.

Specifically, Coastal claimed:

   •   $785,224 in salary, fringe benefit, and administrative costs that were not supported by
       personnel activity reports of employees who worked on the grants;

   •   $131,657 in indirect costs that it improperly charged to its IDS and HIT grants;

   •   $74,428 in other unallowable costs consisting of $54,875 it incurred prior to the start of
       the grant, $13,995 that should have been charged to another grant, and $5,558 in
       duplicate payments; and

   •   $28,346 that was unallowable because some purchases were not properly obligated prior
       to the end of the grant period; however, we made no recommendations concerning this
       amount because HRSA retroactively approved a no-cost extension of the project period.

In addition, Coastal lacked documentation to support about $2 million of its nearly $4.9 million
in grant fund draws. It also drew down grant funds totaling $217,157 after the grant period
ended and before having requested and received from HRSA a no-cost extension of the project
period. Coastal’s lack of documentation for grant fund draws and its ability to draw grant funds
after the grant period ended increased the risk that it would mismanage Federal funds.

These conditions occurred because of deficiencies in Coastal’s internal controls over its financial
management system.

RECOMMENDATIONS

We recommend that HRSA:

   •   either require that Coastal refund to the Federal Government $785,224 in unsupported
       salary, fringe benefit, and administrative costs related to the IDS, the CIP, and both HIT
       grants or work with the grantee to determine whether any of the salary, fringe benefit,
       and administrative costs claimed against the Recovery Act grant were allowable;

   •   require Coastal to refund to the Federal government $131,657 for unallowable indirect
       cost reimbursements related to the IDS and both HIT grants and $74,428 for costs
       improperly charged to the 2009 and 2010 HIT grants; and

   •   ensure that Coastal develops written procedures for determining the allowability of
       expenditures, for drawing down Federal funds based on actual expenses, and for
       maintaining documentation to support Federal funds drawn.


                                                 ii
COASTAL FAMILY HEALTH CENTER COMMENTS

In written comments on our draft report, Coastal generally agreed with our findings and
discussed efforts it had taken or planned to take to strengthen the internal controls over its
financial management system.

In regard to our finding that $28,346 was unallowable because Coastal’s documentation did not
support that the purchases were properly obligated prior to the end of the grant period, Coastal
said that HRSA granted a “no cost” extension of the grant’s project period through June 30,
2012. Coastal said that because the grant had a new end date, the $28,346 in expenses was
allowable. Coastal’s comments, except for proprietary financial information, are included in
their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

After we issued our draft report to Coastal for comment, Coastal gave us documents regarding its
request for a no-cost extension of the project period. One of these documents was Coastal’s
Notice of Grant Award, dated June 4, 2012. This award granted Coastal a no-cost extension of
the CIP grant’s project period until June 30, 2012, which was 26 days after HRSA granted the
extension. Because HRSA retroactively approved Coastal’s request to extend the grant project
period by 366 days, we modified our draft report recommendations accordingly.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA
said it would work with Coastal to: (1) determine the allowability of costs the OIG questioned
and (2) assure that Coastal properly implements corrective actions to strengthen its financial
management internal controls. HRSA’s comments are included in their entirety as Appendix B.




                                                 iii
                                                     TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Health Center Program .......................................................................................... 1
              American Recovery and Reinvestment Act of 2009.............................................. 1
              Coastal Family Health Center ................................................................................ 1
              Federal Requirements for Grantees ....................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2
               Objective ................................................................................................................ 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .............................................................................. 3

          UNALLOWABLE EXPENDITURES CLAIMED FOR FEDERAL
           REIMBURSEMENT ...................................................................................................... 4
               Federal Requirements ............................................................................................ 4
               Salary, Fringe Benefit, and Administrative Costs ................................................. 5
               Indirect Costs ......................................................................................................... 5
               Other Unallowable Grant Expenditures ................................................................. 6

          PAYMENT MANAGEMENT SYSTEM DRAWS .......................................................... 6
              Federal Requirements ............................................................................................ 6
              Unsupported Payment Management System Draws .............................................. 7
              Payment Management System Draws After the Allowable Period ....................... 7

          RECOMMENDATIONS ................................................................................................... 8

          COASTAL FAMILY HEALTH CENTER COMMENTS................................................ 8

          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................ 9

          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS........... 9

APPENDIXES

          A: COASTAL FAMILY HEALTH CENTER COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                     iv
                                             INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including the Capital Improvement Program (CIP), the
Increased Demand for Services (IDS), and the Health Information Technology Implementation
(HIT) grants.

Coastal Family Health Center

Coastal Family Health Center (Coastal) is a nonprofit organization that operates a network of
nine health centers throughout Mississippi. Coastal provides medical, dental, and mental health
services and is funded primarily by patient service revenues and Federal grants.

During calendar years (CY) 2009 and 2010, HRSA awarded Coastal grant funding totaling
approximately $6.3 million. Specifically:

    •   During CY 2009, HRSA awarded Coastal $3.3 million in Recovery Act funds under an
        HIT grant ($1.4 million) to include more clinics in Mississippi’s common medical health
        electronic records system, a CIP grant ($1.3 million) to renovate four health facilities, and
        an IDS grant ($596,904) to increase the number of patients provided health care within
        Coastal’s service area. 1


1
 The grant budget periods our audit covered were: March 1, 2009, through June 30, 2011 (includes four budget
periods). Specifically, March 27, 2009, through March 26, 2011, for the IDS grant funds; June 29, 2009, through
June 28, 2011, for the CIP grant funds; September 1, 2009, through August 31, 2010, for the HIT 2009 grant funds;
and June 1, 2010, through May 31, 2012, for the HIT 2010 grant funds.
                                                        1
    •   During CY 2010, HRSA awarded Coastal $3 million in Recovery Act funds under
        another HIT grant to include more of Coastal’s clinics in the common electronic medical
        records (EMR) system and to enhance the existing EMR system and patient management
        system.

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Coastal must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).
These cost principles require that grant expenditures be allowable. The HHS awarding agency
may include additional requirements that are considered necessary to attain the award’s
objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b) (1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b) (7). Grantees also must have written procedures for determining the
allowability of expenditures in accordance with applicable Federal cost principles and the terms and
conditions of the award (45 CFR § 74.21(b) (6)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Coastal claimed costs that were allowable under the
terms of the grants and applicable Federal regulations.

Scope

We reviewed Recovery Act grant expenditures totaling $4,453,355 that Coastal claimed for
Federal reimbursement for the period March 1, 2009, through June 30, 2011: $1,245,371 CIP,
$77,867 IDS, $1,164,624 (HIT 2009), and $1,965,493 (HIT 2010). Additionally, we reviewed
$168,277 of CIP grant expenditures used to support a payment management system (PMS 2) draw
that occurred in December 2011. Therefore, the total amount reviewed was $4,621,632. We did
not perform an overall assessment of Coastal’s internal control structure. Rather, we reviewed
only the internal controls that pertained directly to our objective.

We performed our fieldwork at Coastal’s administrative office in Biloxi, Mississippi, from July
2011 through February 2012.


2
  The PMS is the key system HHS uses for disbursing grant funds. PMS provides Web-based access to grantees to
request grant fund disbursements and transmits those funds electronically to grantees.


                                                      2
Methodology

To accomplish our objective, we:

   •   reviewed relevant Federal laws, regulations, and guidance;

   •   reviewed grant applications and supporting documentation;

   •   interviewed Coastal’s personnel to gain an understanding of its accounting system,
       internal controls over Federal expenditures, and activities for the grants awarded under
       the Recovery Act;

   •   reviewed Coastal’s policies and procedures on accounting for funds, documenting
       transactions, preparing financial reports, withdrawing Federal funds, and payroll
       processing;

   •   reviewed independent auditor’s reports and related financial statements for fiscal years
       2008, 2009, and 2010;

   •   reviewed and reconciled the drawdown reports from both Coastal and HRSA for the IDS,
       the CIP, and both HIT grants to determine the total amount drawn for these grants; and

   •   reviewed expenditure support documentation, such as purchase requests, invoices,
       cancelled checks, contracts, and revenue and expenditure reports to determine the
       allowability of selected expenditures charged to the IDS, CIP, and HIT grants.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Coastal claimed costs that were generally allowable under the terms of the grants and applicable
Federal regulations. Of the $4,621,632 we reviewed, $3,601,977 was allowable and $234,431
was unallowable. We could not determine the allowability of $785,224.

Specifically, Coastal claimed:

   •   $785,224 in salary, fringe benefit, and administrative costs that were not supported by
       personnel activity reports of employees who worked on the grants;

   •   $131,657 in indirect costs that it improperly charged to its IDS and HIT grants;




                                                3
   •   $74,428 in other unallowable costs consisting of $54,875 it incurred prior to the start of
       the grant, $13,995 that should have been charged to another grant, and $5,558 in
       duplicate payments; and

   •   $28,346 that was unallowable because some purchases were not properly obligated prior
       to the end of the grant period.

In addition, Coastal lacked documentation to support about $2 million of its nearly $4.9 million
in grant fund draws. It also drew down grant funds totaling $217,157 after the grant period
ended and before having requested and received from HRSA a no-cost extension of the project
period. Coastal’s lack of documentation for grant fund draws and its ability to draw grant funds
after the grant period ended increased its risk of mismanagement of Federal funds.

These conditions occurred because of deficiencies in Coastal’s internal controls over its financial
management system.

UNALLOWABLE EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Pursuant to 2 CFR part 230, Appendix A, § A.2.g., costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR part 230, Appendix B, § 8.m.(2)(a), for salaries
and wages to be allowable for Federal reimbursement, grantees must maintain personnel activity
reports for each employee working on Federal awards. The reports must be signed by the
individual employee or by a responsible supervisory official having firsthand knowledge of the
activities performed by the employee to certify that the distribution of activity represents a
reasonable estimate of the actual work performed by the employee during the periods covered by
the reports. Budgeted estimates developed prior to the work being performed do not qualify as
support for personnel activity charges. The reports must be prepared at least monthly and must
coincide with one or more pay periods.

Pursuant to 2 CFR § 230, Appendix A, § E.2.b., a non-profit organization that has not previously
established an indirect cost rate with a Federal agency shall submit its initial indirect cost
proposal immediately after the organization is advised that an award will be made and, in no
event, later than 3 months after the effective date of the award. In addition, the HHS Grants
Policy Statement states that organizations must have or negotiate a cost rate to support a request
for reimbursement of indirect costs.

Pursuant to 45 CFR § 74.21(b)(6), recipients’ financial management systems shall provide for
written procedures for determining the reasonableness, allocability, and allowability of costs in
accordance with the provisions of the applicable Federal cost principles and the terms and
conditions of the award.

Pursuant to 45 CFR § 74.28, a recipient may charge to the grant only allowable costs resulting
from obligations incurred during the funding period and any preaward costs authorized by the
Federal awarding agency.


                                                 4
Salary, Fringe Benefit, and Administrative Costs

Coastal claimed salary, fringe benefit, and administrative costs that did not meet Federal
requirements. Coastal did not have a system to document the actual time employees worked on
specific grants. Instead, Coastal charged employees’ time based on budgeted accounting
allocations rather than on effort actually expended. Also, Coastal did not maintain personnel
activity reports for employees who worked on the grant. As a result, we could not determine the
allowability of all salary and fringe benefit expenses totaling $730,009 that Coastal claimed on
the IDS and both HIT grants. In addition, Coastal charged $55,215 for administrative costs on
its CIP grant that were also based on a budgeted amount and not supported by personnel activity
reports.

Generally, when Coastal hired an employee, it entered the budgeted time for that employee into
the spreadsheet and instructed the employee to clock in and out at the various locations worked.
Regardless of where or how long the employee worked, the spreadsheet allocation (budgeted
allocation) was not always changed or updated, and we found no evidence that Coastal
reconciled the budgeted time in the spreadsheet to the time-clock hours employees actually
worked. Coastal subsequently used the budgeted time allocation data to calculate the salary and
fringe benefit costs charged to its IDS and both HIT grants.

Coastal charged $55,215 to its CIP grant for administrative costs. Coastal calculated the CIP
grant’s administrative costs by allocating 25 percent of the salaries of its chief executive officer
and its facilities manager. A Coastal official said that the CIP administrative costs had to be
calculated in this manner because no salaries were directly charged to the CIP grant and as a
result, Coastal’s cost allocation system could not automatically make the calculation. The only
documentation that Coastal provided to support its administrative cost claim was a spreadsheet
showing the calculation.

Indirect Costs

According to 2 CFR § 230, Appendix A, § E.2.b. and HHS Grants Policy Statement, grantees
must have an approved indirect cost rate to charge indirect costs to a grant.

Coastal claimed unallowable indirect costs totaling $131,657. Coastal’s accounting system
automatically calculated and allocated indirect costs to its grants. According to a Coastal
official, this system allocation had been in existence since 1999 and no one could explain the
allocation. Coastal also did not request reimbursement of indirect costs in its grant application
budget, and HRSA did not approve any indirect costs in Coastal’s notice of awards.
Furthermore, Coastal had not submitted an indirect cost proposal to the HHS Division of Cost
Allocation to obtain an indirect cost rate. As a result, all of the indirect costs ($131,657) that
Coastal claimed for the IDS and both HIT grants were unallowable.

Coastal staff said that they were not aware that the submission of an indirect cost proposal or an
indirect rate agreement was a Federal requirement.




                                                  5
Other Unallowable Grant Expenditures

Coastal claimed unallowable grant expenditures totaling $74,428. Specifically, Coastal claimed
$54,875 for expenses incurred prior to the start of the grant period, $13,995 in expenses that
should have been charged to other grants, and $5,558 in duplicate payments.

Coastal spent $50,000 for consulting services to prepare the grant application and $4,875 for a
business application to the IRS prior to the start of the grant period without receiving prior
approval from HRSA. Coastal charged expenditures totaling $13,995 for technical support
telephone systems, sales taxes, and software maintenance to both HIT grants that were not HIT
grant expenditures. Also, Coastal paid for and charged the HIT grant twice for field engineering
services, which totaled $5,558.

Coastal officials stated that they were unaware that costs incurred prior to the start of the grant
period were unallowable for Federal reimbursement. Coastal claimed “other” unallowable grant
expenditures because it did not have written procedures for determining the allowability of costs.

PAYMENT MANAGEMENT SYSTEM DRAWS

Federal Requirements

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. Grant
payments are made through the PMS, operated by HHS’s Division of Payment Management, in
accordance with Department of the Treasury and Office of Management and Budget
requirements, as implemented by 45 CFR §§ 74.22 and 92.21.

According to 45 CFR § 74.21(b)(1), these financial management systems must provide for
accurate, current, and complete disclosure of the financial results of each HHS-sponsored project
or program. Further, 45 CFR § 74.21(b)(7) states that grantees’ systems must ensure that
accounting records are supported by source documentation.

According to 45 CFR §74.22(b)(2), cash advances to a recipient organization shall: (1) be
limited to the minimum amounts needed and be timed to be in accordance with the actual,
immediate cash requirements of the recipient organization in carrying out the purpose of the
approved program or project and (2) be as close to the actual disbursements by the recipient
organization for allowable direct and indirect program costs.

According to 45 CFR § 74.25(b), recipients are required to request prior approvals for budget
revisions from HHS granting agencies.

Health and Human Services Policies

Pursuant to the HHS Grants Policy Statement, dated January 1, 2007, Part II, Terms and
Condition of Award, p. II-57, prior approval from a granting agency is required for any no-cost
extension of the grant period. This extension will not be granted if the primary purpose of the



                                                 6
proposed extension would be to permit the grantee to simply use the unobligated balance of
funds. All terms and conditions of the award apply during the extended period.

The HHS Division of Grants Management (DGM) allows grantees to draw funds from PMS for
up to 90 days after the end of a grant period to cover expenses obligated before the grant period
ended. DGM can retroactively approve extensions when grantees fail to make the request within
the 90-day grace period. In instances where DGM deemed that a request for an extension would
have been approved if it had been submitted timely, DGM would retroactively approve the
extension and all expenditures incurred during this period are reimbursed.

Unsupported Payment Management System Draws

For selected PMS draws totaling $4,889,353 (approximately 78 percent of the approximately
$6.3 million Recovery Act grant funds awarded), Coastal could not provide sufficient
documentation to support $2,001,504.

Specifically, Coastal could not provide supporting documentation for eight draws totaling
$1,245,663 for the two HIT grants, six draws totaling $517,636 for the IDS grant, and three
draws totaling $238,205 for the CIP grant. In some instances, Coastal calculated the amount of
the draw based on the net amount of year-to-date expenses and total grant revenue rather than
actual expenses. Other times, draws were based on whether sufficient cash to cover expenses
was available in Coastal’s operating account or on a monthly estimate of cash needs rather than
on actual Recovery Act expenditures for that grant.

Although Coastal’s policies and procedures included a procedure for making electronic funds
transfers, it did not specify how drawdowns should be calculated or that drawdowns should be
based on actual disbursements. Therefore, each time Coastal drew funds from PMS, it used a
different method to determine the amount of the draw.

Coastal’s failure to maintain adequate supporting documentation increased its risk of
mismanagement of Federal funds.

Payment Management System Draws After the Allowable Period

The CIP grant ended June 28, 2011, so the 90-day extension period for making draws to liquidate
obligations should have ended September 2011. Without prior approval from HRSA and almost
3 months after the end of the extension period in December 2011, Coastal drew down $217,157
for the CIP grant.

Coastal stopped making PMS draws for the CIP grant during March 2011 because it had not
reconciled the CIP draws to CIP expenditures, so it was unaware of the balance of available CIP
funds left to be drawn. Nevertheless, Coastal continued to make purchases for the CIP grant
with its non-Federal operating funds until December 2011. Then, in December 2011, Coastal
performed a reconciliation of its PMS draws for the CIP grant and determined that funds totaling
$217,157 were still available for the CIP grant, so it drew them down. Additionally in December
2011, Coastal requested from HRSA a no-cost extension of time to complete grant requirements.
According to the HHS Grants Policy Statement, Coastal should have requested this no-cost


                                                7
extension no later than 30 days before the proposed change (HHS Grants Policy Statement,
January 1, 2007, Page II-58, Requesting OPDIV Prior Approval). At the conclusion of our
fieldwork, HRSA had not granted Coastal’s extension request.

We reviewed $168,277 of the $217,157 draw and found that $55,215 was for unsupported
administrative costs, which we discuss under the Unallowable Expenditures Claimed for Federal
Reimbursement section of this report. Of the remaining $113,062, $84,716 was allowable based
on our review of documentation, but $28,346 was unallowable because the documentation did
not support that the purchases were properly obligated prior to the end of the grant period. 3

Coastal did not know the amount of funds it had available to draw from PMS because it did not
reconcile its expenditures and draws in a timely manner. Coastal staff said that they were unable
to perform the reconciliations because they were focused on completing the projects before the
end of the grant period. Also, Coastal’s policies and procedures for making electronic funds
transfers did not specify how often expenditure reconciliations should be performed. Coastal’s
lack of a procedure for reconciling expenditures in a timely manner increased its risk of
mismanagement of Federal funds.

RECOMMENDATIONS

We recommend that HRSA:

    •   either require that Coastal refund to the Federal Government $785,224 in unsupported
        salary, fringe benefit, and administrative costs related to the IDS, the CIP, and both HIT
        grants or work with the grantee to determine whether any of the salary, fringe benefit,
        and administrative costs claimed against the Recovery Act grant were allowable;

    •   require Coastal to refund to the Federal government $131,657 for unallowable indirect
        cost reimbursements related to the IDS and both HIT grants and $74,428 for costs
        improperly charged to the 2009 and 2010 HIT grants; and

    •   ensure that Coastal develops written procedures for determining the allowability of
        expenditures, for drawing down Federal funds based on actual expenses, and for
        maintaining documentation to support Federal funds drawn.

COASTAL FAMILY HEALTH CENTER COMMENTS

In written comments on our draft report, Coastal generally agreed with our findings and
discussed efforts it had taken or planned to take to strengthen the internal controls over its
financial management system.

In regard to our finding that $28,346 was unallowable because Coastal’s documentation did not
support that the purchases were properly obligated prior to the end of the grant period, Coastal


3 After we issued the draft report to Coastal, we learned that HRSA retroactively approved the no-cost extension of
the project period. For this reason, we make no recommendations concerning the $28,346.


                                                         8
said that it had obtained from HRSA a “no cost” extension of the grant’s project period through
June 30, 2012. Coastal said that because the grant had a new end date, the $28,346 in expenses
was allowable. Coastal’s comments, except for proprietary financial information, are included in
their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

After we issued our draft report to Coastal for comment, Coastal gave us documents regarding its
request for a no-cost extension of the project period. One of these documents was Coastal’s
Notice of Grant Award, dated June 4, 2012. This award granted Coastal a no-cost extension of
the CIP grant’s project period until June 30, 2012, which was 26 days after HRSA granted the
extension. Because HRSA retroactively approved Coastal’s request to extend the grant project
period by 366 days, we modified our draft report recommendations accordingly.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA
said it would work with Coastal to: (1) determine the allowability of costs the OIG questioned
and (2) assure that Coastal properly implements corrective actions to strengthen its financial
management internal controls. HRSA’s comments are included in their entirety as Appendix B.




                                               9
APPENDIXES
APPENDIX A: COASTAL FAMILY HEALTH CENTER COMMENTS
                                                    Page 1 of 2


APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION
                       COMMENTS
Page 2 of 2
